OIG Investigative Reports, Man Sentenced to Prison for Student Loan Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
FOR IMMEDIATE RELEASE:
Indiana, August 25, 2006
Contact Person
Susan W. Brooks
United States Attorney
(317) 226-6333
10 West Market Street, Suite 2100
Indianapolis, Indiana 46204
Man Sentenced to Prison for Student Loan Fraud
Susan W. Brooks, United States Attorney for the Southern District of Indiana,
announced that NATHAN VOGTS, 27, Ching Mai, Thailand, was sentenced to 6 months
imprisonment today by U.S. District Judge David F. Hamilton following his guilty
plea to two counts of Student Loan Fraud. This case was the result of an investigation
by the United States Department of Education, Office of the Inspector General.
Between May, 1999 and August, 2001, VOGTS, an American citizen, was enrolled
in an undergraduate program at Bond University in Queensland, Australia. Between
June 6, 2001 and May 3, 2002, VOGTS obtained five federally insured student
loans totaling approximately $87,855 from lenders in the United States. To qualify
for the loans, VOGTS falsely represented that he was enrolled in a graduate
degree program at the university. VOGTS' enrollment at the university, however,
ceased when he received his undergraduate degree and he was never enrolled in
a graduate degree program at the university. VOGTS used the fraudulently acquired
loan proceeds to support himself, to start a business venture, and to seek treatment
for a medical condition.
According to Assistant United States Attorney Joe H. Vaughn, who prosecuted
the case for the government, Judge Hamilton also imposed 3 years supervised
release following VOGTS' release from imprisonment. During the period of supervised
release, VOGTS will be subject to the supervision of the United States District
Court. VOGTS was ordered to make restitution in the amount of $87,855.
Printable view
Share this page
Last Modified: 08/28/2006
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov